No. 20-951

In the Supreme Court of the United States
MARY STEWART, AS ADMINISTRATOR OF THE ESTATE OF
LUKE O. STEWART, SR.,
Petitioner,
v.
CITY OF EUCLID, OHIO, ET AL.,
Respondents.

CERTIFICATE OF SERVICE
I, Andrew J. Pincus, counsel for Amici Curiae Legal Scholars, hereby certify
that on this 16th day of February, 2021, I caused the Brief of Legal Scholars as Amici
Curiae in Support of Petitioner to be served by email and overnight delivery on the
following counsel:
Devi Maheswari Rao
Roderick & Solange MacArthur Justice
Center
501 H St. NE, Suite 275
Washington, DC 20002
Tel.: 202-637-6390
devi.rao@macarthurjustice.org
Attorney for Petitioner

Frank H. Scialdone
Mazanec, Raskin & Ryder Co.
100 Franklin’s Row
34305 Solon Road
Cleveland, OH 44139
Tel.: 440-248-7906
fscialdone@mrrlaw.com
Attorney for Respondents

I further certify that all parties required to be served have been served.

/s/ Andrew J. Pincus
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
apincus@mayerbrown.com

